Before the Committee on Appropriations
Subcommittee on Transportation, Housing and Urban Development, and
Related Agencies
United States Senate

For Release on Delivery
Expected at
10:00 a.m. EDT
                          Key Safety and
Thursday
April 17, 2008
                          Modernization Challenges
                          Facing the Federal Aviation
CC-2008-070



                          Administration


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Murray, Ranking Member Bond, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the Federal Aviation
Administration’s (FAA) safety and modernization performance. Ensuring that
airlines safely meet the demand for air travel is important to the flying public and the
national economy; this will remain a top priority for the Department. FAA is facing
the formidable challenge of operating and maintaining an increasingly strained system
while transitioning to the next generation of air traffic control. In addition, FAA must
concurrently address attrition in two of its most critical workforces—air traffic
controllers and aviation safety inspectors.

All of these are key facets of FAA’s primary mission—aviation safety oversight. As
this Subcommittee is aware, safety is a shared responsibility among FAA, aircraft
manufacturers, airlines, and airports. Together, all four form a series of overlapping
controls to keep the system safe.

The United States has achieved an impressive safety record over the past several
years. This is a remarkable accomplishment given the rapidly changing aviation
industry. For example, network carriers face considerable uncertainty with a
weakening economy, increasing fuel prices, and rising competition from low-cost
carriers; these carriers now comprise one-third of the market in terms of available
passenger seats.

Network carriers have moved aggressively away from high-cost structures by
reducing in-house staff, renegotiating labor agreements, and increasing the use of
external repair facilities. Three air carriers recently ceased passenger operations and a
fourth just filed for bankruptcy protection. In addition, the recently announced
intended merger between Northwest and Delta has generated considerable speculation
regarding further consolidation within the industry.

At the same time, demand for air travel has increased, and aircraft load factors are at
nearly 80 percent—an all-time high. In 2007, U.S. airlines transported over
700 million passengers, and this number is forecasted to grow to over 1 billion by
2016.

However, several high-profile events, including fundamental breakdowns in FAA
oversight at Southwest Airlines (SWA), have raised concerns about whether FAA’s
overall approach to safety oversight is effective and what changes are needed. These
concerns have been amplified by airlines’ grounding of nearly 700 aircraft, which
caused 4,198 flight cancellations, since FAA began industry-wide assessments of
compliance with safety directives. There is an urgent need to identify the root causes
of safety problems and proactively examine how to maintain and ultimately enhance
the margin of safety.



                                                                                       1
Madam Chairman, it is against this backdrop that we would like to discuss three key
challenges facing FAA and its stakeholders over the next several years:

    • Strengthening FAA’s oversight of the aviation industry.
    • Keeping existing modernization programs on track, reducing risk with NextGen,
      and setting realistic expectations.
    • Addressing attrition within two of FAA’s critical workforces.
Strengthening FAA’s Oversight of the Aviation Industry
The recent events at SWA drew national attention to serious lapses in FAA’s
oversight of air carriers. As this Subcommittee is aware, FAA’s handling of
whistleblower concerns regarding SWA’s failure to follow a critical FAA
airworthiness directive (AD) has had a cascading effect throughout the industry.
While these safety lapses indicated problems with the airline’s compliance, they are
symptomatic of much deeper problems with FAA’s oversight in the following areas.

We found FAA’s inspection office for SWA developed an overly collaborative
relationship with the air carrier, which allowed repeated self-disclosures of AD
violations through FAA’s partnership program.1 These programs are intended to
facilitate cooperation between FAA and air carriers to identify and address safety
issues. Yet, FAA allowed SWA to repeatedly self-disclose AD violations without
ensuring that SWA had developed a comprehensive solution for reported safety
problems—which is required for FAA to accept the disclosure and absolve the carrier
of any penalty.

We also found that the events at SWA demonstrated weaknesses in FAA’s
national program for risk-based oversight—the Air Transportation Oversight
System (ATOS). This allowed AD compliance issues in SWA’s maintenance
program to go undetected for several years. As early as 2003, one of the
whistleblowers expressed concerns to FAA about SWA’s compliance with ADs. In
2006, he began urging FAA to conduct system-wide reviews, but FAA did not begin
these reviews until after the details of the March 2007 disclosure became public.

In fact, FAA inspectors had not reviewed SWA’s system for compliance with ADs
since 1999. At the time of SWA’s disclosure, FAA inspectors had not completed
21 key inspections for at least 5 years. While FAA has subsequently completed some
of these inspections, as of April 15, 2008, 4 of these 21 inspections were still
incomplete; some had not been completed for nearly 8 years.



1
    OIG Testimony Number CC-2008-046, “Actions Needed To Strengthen FAA’s Safety Oversight and Use of Partnership
    Programs,” April 3, 2008. OIG reports and testimonies are available on our website: www.oig.dot.gov.


                                                                                                               2
We previously identified system-wide problems with ATOS. In 2005, 2 we found that
inspectors did not complete 26 percent of planned ATOS inspections—half of these
were in identified risk areas. We recommended, among other things, that FAA
strengthen its national oversight and accountability to ensure consistent and timely
ATOS inspections.        However, FAA has still not fully implemented our
recommendations.

Our work at SWA and Northwest Airlines (NWA) 3 has identified similar
weaknesses in FAA’s processes for conducting internal reviews and ensuring
appropriate corrective actions. In the SWA case, FAA’s internal reviews found, as
early as April 2007, that the principal maintenance inspector (PMI) was complicit in
allowing SWA to continue flying aircraft in violation of the AD. Yet, FAA did not
attempt to determine the root cause of the safety issue nor initiate enforcement action
against the carrier until November 2007. At NWA, FAA’s reviews of an inspector’s
safety concerns were limited and also overlooked key findings identified by other
inspectors. Although FAA found that some of the inspector’s safety concerns were
valid, FAA informed him that all of his concerns lacked merit.

We also have concerns regarding FAA’s failure to protect employees who report
safety issues from retaliation by other FAA employees. For example, in the SWA
case, after one whistleblower voiced his concerns to FAA, an anonymous hotline
complaint was lodged against him. According to the inspection office manager, the
PMI indicated that a SWA representative submitted the complaint. The complaint
was non-specific and never substantiated, but the whistleblower was removed from
oversight duties for 5 months while under investigation. Yet, FAA did not suspend
other inspectors who were subjects of similar complaints, including the PMI who
admitted that he allowed SWA to continue flying in violation of the AD.

Our work at NWA found the same problem with FAA’s handling of the inspector who
reported safety concerns. As with the inspector in the SWA case, FAA managers
reassigned an experienced inspector to office duties, after a complaint from the
airline, and restricted him from performing oversight on the carrier’s premises. Both
the SWA and NWA cases demonstrate that FAA must pursue a more reliable internal
review process and protect employees who identify important safety issues.

FAA recently announced several actions to address the SWA safety directive
violation. These include initiating a review of AD compliance at SWA and other air
carriers. FAA also proposed to fine SWA more than $10 million.




2
    OIG Report Number AV-2005-062, “FAA Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.
3
    OIG Report Number AV-2007-080, “FAA’s Actions Taken To Address Allegations of Unsafe Maintenance Practices at
    Northwest Airlines,” September 28, 2007.


                                                                                                               3
While FAA’s proposed actions are necessary, albeit long overdue, it must make
the following changes to its air carrier oversight to prevent recurrence of these
safety issues:

 • Ensure that its Voluntary Disclosure Reporting Program (VDRP) requires
   inspectors to (a) verify that air carriers take comprehensive actions to correct the
   underlying causes of violations identified through self-disclosure programs and (b)
   evaluate, before accepting a new report of a previously disclosed violation,
   whether the carrier developed and implemented a comprehensive solution.
 • Implement a process for second-level supervisory review of self-disclosures
   before they are accepted and closed.
 • Periodically rotate supervisory inspectors to ensure reliable and objective air
   carrier oversight.
 • Require that its post-employment guidance include a “cooling-off” period when an
   FAA inspector is hired at an air carrier he or she previously inspected.
 • Implement a process to track field office inspections and alert the local, regional,
   and Headquarters offices to overdue inspections.
 • Establish an independent organization to investigate safety issues identified by its
   employees.
 • Develop a national review team that conducts periodic reviews of FAA’s oversight
   of air carriers.

FAA needs to address these recommendations to demonstrate its commitment to
effective oversight. We will continue to examine FAA’s oversight of the aviation
industry from a national perspective. We will keep this Subcommittee apprised of our
progress as well as other actions FAA should take to ensure safety.

Our work has also shown that FAA’s oversight of repair stations and aircraft
manufacturers’ suppliers must keep pace with the dynamic changes occurring in those
industries. Although outsourcing has increased in recent years, FAA’s oversight has
focused primarily on carriers’ in-house repairs instead of repair stations performing a
higher volume of repairs. We have emphasized that the issue is not where
maintenance is performed, but that maintenance requires effective oversight.

FAA’s system for overseeing manufacturers’ suppliers does not fully consider their
increased role in the production of aircraft parts. As a result, we found that FAA has
not ensured that manufacturers effectively oversee suppliers or that its inspectors
perform enough supplier audits to adequately assess manufacturers’ quality assurance
systems.




                                                                                     4
Keeping Existing Modernization Projects on Track, Reducing Risk With
NextGen, and Setting Realistic Expectations
A major challenge for FAA over the next 10 years and beyond will be transitioning to
the Next Generation Air Transportation System (NextGen). FAA’s capital account is
now being shaped by NextGen—an enormously complex effort that will cost tens of
billions of dollars. FAA is requesting $2.7 billion for its capital account in fiscal year
(FY) 2009, an increase of over $200 million from the FY 2008 enacted level of
$2.5 billion. Over $600 million in the FY 2009 request is dedicated to NextGen
efforts, such as the Automatic Dependent Surveillance-Broadcast (ADS-B)—a new
satellite-based surveillance system that has the potential to enhance safety and
capacity.

It will be important to keep existing modernization efforts on track as 30 projects are
expected to serve as platforms for NextGen initiatives. Our recent report 4 on FAA’s
modernization efforts examined the status of 18 major acquisitions with a combined
value of $17.5 billion.

While we are not seeing the massive cost growth or schedule slips that occurred in the
past, we are concerned about several projects that continue to experience cost and
schedule risks or reduced benefits. For example, FAA has spent about $314 million
(57 percent) of planned funding for the Airport Surface Detection Equipment-
Model X (ASDE-X) program (a technology to prevent accidents on runways).
However, FAA has only deployed 12 of 35 systems for operational use and must now
deploy 23 systems at the more complex airports with less than half of the planned
funds remaining.

FAA is making progress in developing the NextGen Enterprise Architecture (a
technical blueprint), which is planned for implementation by 2025. The Agency is
also exploring ways to accelerate NextGen. However, costs for NextGen remain
uncertain, and FAA needs to establish reasonable expectations for NextGen
investments and realistic timeframes for improvements to enhance capacity and
reduce delays. At this juncture, FAA needs to pursue the following actions:

    • Conduct a gap analysis of the current National Airspace System (NAS) and future
      NextGen capabilities. Until FAA completes a gap analysis, it will not be able to
      determine technical requirements that translate into reliable cost and schedule
      estimates for major acquisitions.
    • Set expectations and establish NextGen funding priorities. FAA needs to better
      understand costs and benefits and then identify the high priority improvements for
      inclusion in its budget requests.


4
    OIG Report Number AV-2008-049, “Air Traffic Control Modernization: FAA Faces Challenges in Managing Ongoing
    Projects, Sustaining Existing Facilities, and Introducing New Capabilities,” April 14, 2008.


                                                                                                             5
 • Develop an interim architecture for what can be accomplished by 2015. This
   would help FAA to determine reasonable goals, establish priorities, fully identify
   adjustments to existing projects, refine requirements for new systems, and
   understand complex transition issues.
 • Develop a strategy for acquiring the necessary skill mix to effectively manage and
   execute NextGen. FAA must anticipate needed skill sets for NextGen to avoid the
   problems that have hindered its modernization efforts.

Addressing Attrition Within Two of FAA’s Critical Workforces
Another key issue for FAA for at least the next 10 years is addressing attrition in two
of its critical safety workforces—air traffic controllers and aviation safety inspectors.
Since 2005, 3,300 controllers have left the Agency—23 percent more than projected.
FAA has accelerated its hiring efforts and has hired 3,450 new controllers since
2005—25 percent more than projected. Still, FAA faces a major challenge as it must
hire and train at least 17,000 new controllers through 2017.

• As a result of the high level of controller attrition, FAA is facing a fundamental
  transformation in the composition of its controller workforce. The overall
  percentage of controllers-in-training has grown substantially during the past 3 years.
  New controllers now represent about 25 percent of the workforce (up from
  15 percent in 2004). However, that percentage can vary extensively by location—
  from as little as 2 percent (e.g., the Boston Terminal Radar Approach Control
  facility [TRACON]) to as much as 50 percent (e.g., the Las Vegas TRACON).

  A major challenge in addressing the attrition surge will be to train new controllers
  to the Certified Professional Controller (CPC) level at their assigned locations—a
  process that can take up to 3 years. Training new controllers to the CPC level is
  important for two reasons: (1) only CPCs are qualified to control traffic at all
  positions of their assigned area, and (2) only CPCs certified for at least 6 months (at
  their assigned location) can become on-the-job training (OJT) instructors for other
  new controllers. FAA must have enough OJT instructors at all locations if it is to
  achieve its ambitious hiring and training plans for the next 10 years and beyond.

• FAA also is facing challenges to its oversight mission due to attrition in its
  inspector workforce. FAA has about 4,100 inspectors to oversee a dynamic and
  rapidly changing industry, which includes 114 commercial air carriers, almost
  5,000 foreign and domestic repair stations, more than 700,000 active pilots, and
  more than 1,600 approved manufacturers. Last year, FAA’s hiring efforts kept pace
  with retirements, and the Agency ended the year with 133 additional inspectors
  compared to FY 2006 levels. However, FAA must continue to closely oversee this
  effort, since nearly half of the inspector workforce will be eligible to retire in the
  next 5 years.



                                                                                       6
    To maximize its limited inspector resources, FAA has been working toward risk-
    based safety oversight systems for air carriers, repair stations, and manufacturers.
    These systems target inspector resources to areas of greatest risk. However, unless
    FAA develops a reliable staffing model, it will not be able to effectively use its
    inspectors.

I would now like to discuss these areas in further detail.

STRENGTHENING FAA’S OVERSIGHT OF THE AVIATION
INDUSTRY
Recent Events at Southwest Airlines Underscore System-Wide
Weaknesses in FAA’s Air Carrier Oversight
The recent events at SWA exposed significant weaknesses in FAA’s oversight of air
carriers and problems with its partnership programs. The FAA directive 5 in this case
required SWA to inspect the fuselages of its Boeing 737s for potential cracks. FAA
issued this directive after an Aloha Airlines 737 lost a major portion of its hull while
in flight at 24,000 feet in 1988, resulting in 1 fatality and multiple injuries.

According to FAA, when an air carrier determines that it has not implemented an AD,
it is required to immediately ground all non-compliant aircraft. FAA inspectors share
this responsibility—if an inspector becomes aware that an air carrier has violated the
terms of an AD, the inspector is required to ensure that the aircraft are grounded.

To meet this requirement, air carriers need a system to help them perform repetitive
inspections of aircraft fuselages in a timely manner. However, we found that SWA
did not have an adequate system to ensure it completed these inspections. As a result,
SWA operated 46 aircraft that were not inspected for fuselage cracks. These aircraft
flew in violation of the AD on more than 60,000 flights for up to 9 months. We
estimate that these aircraft carried 6 million passengers during this period.

According to SWA, it discovered it had violated this directive on March                                14, 2007.
SWA notified an FAA principal maintenance inspector the following day.                                 However,
the inspector did not direct SWA to ground the affected planes, and SWA                                continued
to operate them on 1,451 flights for 8 more days, carrying an                                          estimated
145,000 passengers.

The PMI permitted—and encouraged—SWA to formally self-disclose the AD
violation through its Voluntary Disclosure Reporting Program, which would allow the
airline to avoid any penalties. FAA accepted the self-disclosure, even though it had


5
    FAA Airworthiness Directive 2004-18-06 requires that Boeing 737s (series 200, 300, 400, and 500) be inspected for
    fuselage cracks every 4,500 cycles (1 cycle equals 1 take-off and landing) after they reach 35,000 cycles.


                                                                                                                   7
               already accepted multiple disclosures on AD violations; this should have prompted
               FAA to question whether the carrier had corrected underlying problems.

               Once it formally self-disclosed the violation on March 19, 2007, SWA stated that it
               was in compliance with the AD, meaning it had inspected or grounded all affected
               aircraft. However, two FAA inspectors (the whistleblowers in this case) reported that
               their supervisor, the PMI, knowingly permitted SWA to continue flying the identified
               aircraft even after SWA’s self-disclosure. SWA officials confirmed this and stated
               that the PMI gave them verbal permission to continue flying the aircraft.

               We found that—after SWA self-disclosed the overflight—several of these aircraft
               flew into airports multiple times where they could have received the required
               inspections. When SWA finally inspected the aircraft, it found fuselage cracks in five
               of them. The AD specifies that these cracks could potentially lead to fuselage
               separation and rapid aircraft depressurization if left in disrepair.

               While these critical safety lapses indicate problems with SWA’s ability to comply
               with safety directives, they are symptomatic of much deeper problems with FAA’s
               oversight (the timeline below shows the events of the SWA disclosure and FAA
               actions).

                                                     Figure 1. Timeline of SWA Disclosure


                     Affected planes continue
                     operating on 1,451 flights
                                                                                         SHMD reports that
                         SWA rep.            SWA                                         SWA states PMI
                                                                                         never ordered             2nd review: PMI
                         notifies PMI        self-       SWA states it has                                         admits he should
                         that 100            discloses   completed                       planes grounded
          SWA                                                                            and PMI admitted he       have grounded
                         planes may          that 47*    inspections for                                           planes but chose to
          discovers it                                   affected planes—                shouldn’t have
                         have                planes                                                                avoid negative effect
          overflew AD                                    5 had cracks                    encouraged self-
                         overflown           overflew                                                              on FAA
                                                                                         disclosure                                Sparks Feb ’08 House
                                                                                                                                   Committee request to OIG
SWA/External
FAA                       14 15         19    22 23        18    1                           12                     18        2                    16

FAA Region/Office                 Mar                     Apr        May        Jun           Jul      Aug       Sept             Oct               Nov
Overseeing SWA
                                                   Independent
                                                                                                               Region              FAA initiates
                     During routine                review concludes        Region requests
                                                                                                               requests 2nd        enforcement
                     inspection at Chicago,        SWA operated 47         FAA’s SHMD**
                                                                                                               SHMD review          action
                     whistleblower sees            planes in known         to review SWA
                     cracks on 1 of the            unairworthy             self-disclosure
                     reported planes—it had        condition and that
                     flown the day before          PMI condoned this.
                                                   No action taken
                                                   against PMI                                      2007
        * SWA later determined only 46
          violated AD.
        **Security and Hazardous Materials
          Division




                                                                                                                                                          8
Overly Collaborative Relationship With Air Carrier Contributed to Breakdowns
in Partnership Program
We found that FAA’s inspection office for SWA developed an overly collaborative
relationship with the air carrier that allowed repeated self-disclosures of AD
violations through its partnership program. Partnership programs are intended to
encourage data-sharing between FAA and air carriers to identify and address safety
issues. Yet, FAA allowed SWA to repeatedly self-disclose AD violations without
ensuring that SWA had developed a comprehensive solution for reported safety
problems—which is required for FAA to accept the disclosure and absolve the carrier
of any penalty.

However, SWA’s proposed solutions, which FAA has repeatedly accepted, have
failed to solve AD compliance issues as the carrier has violated four different ADs
eight times since December 2006, including five in 2008. FAA’s oversight in this
case appears to allow, rather than mitigate, recurring safety violations.

FAA maintains that disclosure programs are valuable, as they can help to identify and
correct safety issues that might not otherwise be obtainable. However, we are
concerned that FAA relies too heavily on self-disclosures and promotes a pattern of
excessive leniency at the expense of effective oversight and appropriate enforcement.
Further, a partnership program that does not ensure carriers correct underlying
problems is less likely to achieve safety benefits.

Our ongoing work at another carrier has identified concerns with employees using
disclosures to avoid penalties for safety violations. FAA must take steps to maintain
the safety objective of these programs by actively discouraging improper relationships
between inspection offices and carriers so that these programs do not lapse into an
amnesty path for perpetual safety violators.

Missed Inspections at SWA Demonstrate Weaknesses in FAA’s National
Oversight
Our work at SWA and other carriers has found weaknesses in FAA’s national
program for risk-based oversight—the Air Transportation Oversight System (ATOS).
At SWA, multiple, missed ATOS inspections allowed AD compliance issues in
SWA’s maintenance program to go undetected for several years. As early as 2003,
one of the whistleblowers expressed concerns to FAA about SWA’s compliance with
ADs. In 2006, he began urging FAA to conduct system-wide reviews, but FAA did
not begin these reviews until after the details of the March 2007 disclosure became
public.

In fact, FAA inspectors had not reviewed SWA’s system for compliance with ADs
since 1999. At the time of the SWA disclosure, FAA inspectors had not completed
21 key inspections in at least 5 years. While FAA has subsequently completed some


                                                                                    9
of these inspections, as of April 15, 2008, 4 of these inspections were still incomplete;
some had not been completed for nearly 8 years.

We have previously identified system-wide problems with ATOS. For example, in
2002, 6 we found inconsistent inspection methods across FAA field offices for various
carriers. As a result, FAA inspectors were confused over how to conduct ATOS
inspections and assess risks.

In 2005, we found that inspectors did not complete 26 percent of planned ATOS
inspections—half of these were in identified risk areas. We recommended, among
other things, that FAA strengthen its national oversight and accountability to ensure
consistent and timely ATOS inspections. However, FAA still has not fully addressed
our recommendations.

Events at SWA and NWA Demonstrate Weaknesses in FAA’s Internal
Reviews of Safety Issues and Protection for Employees Who Report Them
Our work at SWA and NWA have identified weaknesses in FAA’s processes for
conducting internal reviews, ensuring corrective actions, and protecting employees
who report safety concerns. In the SWA case, FAA’s internal reviews found as early
as April 2007 that the PMI was complicit in allowing SWA to continue flying aircraft
in violation of the AD. Yet, FAA did not attempt to determine the root cause of the
safety issue nor initiate enforcement action against the carrier until November 2007.

At NWA, FAA’s reviews of an inspector’s safety concerns were limited and
overlooked key findings identified by other inspectors. Although some of the
inspector’s safety concerns were valid, FAA informed him that all of his concerns
lacked merit.

We also have concerns regarding FAA’s failure to protect employees who report
safety issues from retaliation by other FAA employees. For example, in the SWA
case, after one whistleblower voiced his concerns to FAA, an anonymous hotline
complaint was lodged against him. According to the inspection office manager, the
PMI indicated that a SWA representative submitted the complaint.

The complaint was non-specific and never substantiated, but the whistleblower was
removed from his oversight duties for 5 months while under investigation. However,
FAA did not suspend other inspectors who were subjects of similar complaints,
including the PMI who admitted he allowed SWA to continue flying in violation of
the AD.

Our work at NWA found the same problem with FAA’s handling of the inspector who
reported safety concerns. As with the inspector in the SWA case, FAA managers

6
    OIG Report Number AV-2002-088, “Air Transportation Oversight System,” April 8, 2002.


                                                                                           10
reassigned an experienced inspector to office duties, following a complaint from the
airline, and restricted him from performing oversight on the carrier’s premises.

Both the SWA and NWA cases demonstrate that FAA must pursue a more reliable
internal review process and protect employees who identify important safety issues.

FAA Needs To Make Immediate and Comprehensive Changes to Its Air
Carrier Oversight Programs
FAA recently announced several actions to address the SWA safety directive
violation. These include initiating a review of AD compliance at SWA and other air
carriers. FAA also proposed to fine SWA more than $10 million.

While FAA’s actions are necessary, albeit long overdue, the issues we have identified
will require FAA to make the following changes to its air carrier oversight programs:

 • Ensure that its VDRP guidance requires inspectors to (a) verify that air carriers
   take comprehensive actions to correct the underlying causes of violations
   identified through self-disclosure programs and (b) evaluate, before accepting a
   new report of a previously disclosed violation, whether the carrier developed and
   implemented a comprehensive solution.
 • Implement a process for second-level supervisory review of self-disclosures
   before they are accepted and closed—acceptance should not rest solely with one
   inspector.
 • Periodically rotate supervisory inspectors to ensure reliable and objective air
   carrier oversight.
 • Require that its post-employment guidance include a “cooling-off” period when an
   FAA inspector is hired at an air carrier he or she previously inspected.
 • Implement a process to track field office inspections and alert the local, regional,
   and Headquarters offices to overdue inspections.
 • Establish an independent organization to investigate safety issues identified by its
   employees.
 • Develop a national review team that conducts periodic reviews of FAA’s
   oversight of air carriers.

FAA Must Improve Its Oversight of Repair Stations and Aircraft
Manufacturers’ Suppliers
As with its oversight of air carriers, our work has also shown that FAA must make
similar improvements to its oversight of repair stations and its risk-based system for
overseeing aircraft manufacturers’ suppliers. We found that FAA’s oversight has not
kept pace with the dynamic changes occurring in both of these industries.


                                                                                    11
FAA Must Closely Monitor Air Carriers’ Increased Use of Repair Stations
Air carriers have outsourced maintenance for years to both domestic and foreign
repair facilities. These facilities can complete repairs at lower costs and provide
services, such as engine repair, that otherwise would require air carriers to have
specialized equipment and staff. Many air carriers outsource their engine work to the
original equipment manufacturers because they can provide a specific level of
expertise as well as warranties for their products. However, in recent years, air
carriers’ use of external repair facilities has become more prominent.

As we testified in June, 7 from 1996 to 2006, while total maintenance costs fluctuated,
air carriers continued to increase the percentage of maintenance dollars spent on
outsourced maintenance—from 37 to 64 percent. In 2006, $3.7 billion of the
$5.7 billion spent on maintenance was outsourced (see figure 2).

               Figure 2. Percentage Increase in Outsourced Maintenance for Major Air
                                       Carriers, 1996 to 2006

               $6.5

               $6.0

               $5.5

               $5.0

               $4.5

               $4.0
                                                                                                                       64%
               $3.5                                                                                          62%
    Billions




               $3.0                                                                              54%
                                                                  47%
                                                45%       44%               47%     51%
               $2.5
                                      41%
               $2.0           38%
                      37%
               $1.5

               $1.0

               $0.5

               $0.0
                       1996    1997     1998       1999    2000     2001     2002       2003       2004        2005       2006

                                                            Calendar Year
     Source: U.S. DOT Form 41, Schedule P-52 Rep orts                               Contract M aintenance Exp ense    Total Cost




Neither FAA nor the Department maintains information on how much maintenance
air carriers outsource to foreign facilities. However, our work shows that the number
of foreign FAA-certificated repair stations repairing U.S. aircraft increased from
344 in 1994 to 698 in 2007. We have emphasized that the issue is not where
maintenance is performed, but that maintenance requires effective oversight.

We have identified weaknesses in FAA’s ability to effectively monitor the increase in
outsourcing. For example, in July 2003, we reported 8 that FAA had not shifted its
oversight of aircraft maintenance to the locations where the maintenance was

7
        OIG Testimony Number CC-2007-076, “Aviation Safety: FAA Oversight of Foreign Repair Stations,” June 20, 2007.
8
        OIG Report Number AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair Stations,” July 8, 2003.


                                                                                                                                   12
performed. Although air carriers were using external repair stations to perform more
of their maintenance work, FAA was still focusing most of its inspections on the
maintenance work that air carriers performed within their own facilities.

During the past 8 years, FAA has taken important steps to move its safety oversight
for air carriers and repair stations to risk-based systems. FAA’s new oversight system
applies to both domestic and foreign repair stations. However, FAA cannot
effectively implement a risk-based system for oversight of aircraft maintenance if it
does not know where the maintenance is performed.

In December 2005, 9 we again reported that FAA did not have good systems for
determining which repair facilities air carriers were using to perform their most
critical maintenance. FAA subsequently developed new inspector guidance and air
carrier processes to address this problem, but these efforts still fall short of providing
FAA with the information it needs. We have concerns about the new system
primarily because it does not require air carriers to report (1) volume data for repairs
performed and (2) all repair stations that provide critical component repairs. Further,
FAA does not validate the information that carriers provide. FAA also does not have
specific inspector guidance for identifying the types of non-certificated repair
facilities that we found were performing critical maintenance.

FAA has agreed to require air carriers to report overall volume data on repairs, but it
has not agreed to require them to report volume data for repair stations providing
critical component repairs. In addition, FAA still does not require inspectors to
validate the information that carriers provide. If air carrier reports are to be an
effective means for FAA to track and accurately target repair facilities that air carriers
use the most, a more thorough process will be needed.

FAA Must Improve Its Oversight of Aircraft Manufacturers’ Suppliers
In February, we reported 10 that FAA has worked toward a risk-based oversight system
for aviation manufacturers since 1998. FAA implemented this system in FY 2003,
but it does not take into account the degree to which manufacturers now use suppliers
to make aviation products. FAA based the new system on historical manufacturing
business models, in which manufacturers maintained primary control over the
production of their aircraft rather than using suppliers to design and manufacture
extensive portions of aircraft.

We found weaknesses throughout FAA’s oversight system for manufacturers and
their suppliers. First, FAA has not ensured that manufacturers are overseeing their
suppliers. Manufacturers are the first line of defense in ensuring the products used on

9
     OIG Report Number AV-2006-031, “Review of Air Carriers’ Use of Non-Certificated Repair Facilities,”
     December 15, 2005.
10
     OIG Report Number AV-2008-026, “Assessment of FAA’s Risk-Based System for Overseeing Aircraft Manufacturers’
     Suppliers,” February 26, 2008.


                                                                                                                13
their aircraft meet FAA and manufacturer standards. Yet, during the 24 months
preceding our review, manufacturers had not audited 6 of the 21 critical parts
suppliers we visited.

Second, FAA does not require inspectors to perform enough audits of suppliers to
determine how well manufacturers’ quality assurance systems are working. FAA’s
guidance for overseeing manufacturers’ quality assurance systems only requires
inspectors to perform, at most, four supplier audits, regardless of how many suppliers
the manufacturer uses.

Supplier control audits are a primary tool that FAA uses to assess how well
manufacturers’ oversight systems are working. Equally important, these audits
function as a second layer of control for preventing improperly produced parts from
entering the market.

However, as shown in table 1 below, in each of the last 4 years, FAA has inspected an
average of 1 percent of the total suppliers used by the five manufacturers we
reviewed. At FAA’s current surveillance rate, it would take inspectors at least
98 years to audit every supplier once. This is particularly troubling because
manufacturers are not evaluating these suppliers frequently or comprehensively.

                Table 1. Number of Supplier Audits Completed by FAA
                            for Five Major Manufacturers
                                                Supplier Audits Completed by FAA
Manufacturer          No. of     FY 2003         FY 2004 FY 2005 FY 2006 Avg. %
                     Supplier                                                    Per FY
                    Facilitiesa/
       A             4,012         2                   1            7             4             1%
       Bb/           2,553        31                  26           15            27             1%
       C               706         5                   4            4             6             1%
       D               489         5                   3            1             2             1%
       E               367         0                   2            3             2             1%
a/
 Number of supplier facilities based on information obtained for 2004.
b/
 This manufacturer operates seven separate manufacturing divisions. As a result, FAA evaluated the seven
  divisions separately for risk assessment purposes, which resulted in more supplier control audits.
Source: FAA's National Supplier Control Audit Schedules, FY 2003-2006

Third, the systemic deficiencies we identified at the 21 supplier facilities we visited
indicate that manufacturers and FAA need to strengthen their oversight of these
facilities. For example, nearly half (43 percent) of the suppliers had deficiencies in
their tool calibration and employee training programs. Deficiencies in these areas
could impact the quality of the parts these suppliers produce.




                                                                                                           14
KEEPING EXISTING MODERNIZATION PROGRAMS ON
TRACK, REDUCING RISKS WITH NEXTGEN, AND SETTING
REALISTIC EXPECTATIONS
Progress and Problems With FAA Acquisitions
Overall, we are not seeing the significant cost growth and schedule slips with FAA
major acquisitions that occurred in the past. This is because FAA has taken a more
incremental approach to managing major acquisitions. When comparing revised
baselines, only 2 of the 18 projects we reviewed have experienced additional cost
growth ($53 million, combined) and delays (5 years, combined) since our last report
in 2005.11 However, from program inception, six programs have experienced cost
growth of close to $4.7 billion and schedule delays of 1 to 12 years.

While FAA’s incremental approach may reduce risk in the near term, it has left
several programs with no clear end-state and less visibility into how much they will
ultimately cost. A case in point involves modernizing facilities that manage traffic in
the vicinity of airports, commonly referred to as “terminal modernization.”

In 2004, faced with cost growth of over $2 billion for the Standard Terminal
Automation Replacement (STARS) program, FAA shifted to a phased process,
committing STARS to just 47 sites at an estimated cost of $1.46 billion. FAA’s
original plan was to deploy the system to 172 sites for $940 million. FAA renamed
this modernization effort the Terminal Automation Modernization-Replacement
(TAMR) initiative.

In 2005, FAA approved modernizing displays through the TAMR program (referred
to as TAMR Phase 2) by replacing legacy equipment at five additional small sites and
replacing the aging displays at four large, complex facilities. However, this leaves
over 100 sites still in need of modernization. Although FAA has not decided how it
will modernize these sites, its FY 2008 budget submission indicates that the total cost
for this effort could be over $1 billion. FAA is requesting $31.2 million for terminal
modernization efforts for FY 2009.

There is no defined end-state for terminal modernization, and past problems with
developing and deploying STARS leave FAA in a difficult position to begin
introducing NextGen capabilities. Future terminal modernization costs will be shaped
by (1) NextGen requirements, (2) the extent of FAA’s terminal facilities
consolidation, and (3) the need to replace or sustain existing (legacy) systems that
have not been modernized.


11
     OIG Report Number AV-2005-061, “Status of FAA’s Major Acquisitions: Cost Growth and Schedule Delays Continue
     To Stall Air Traffic Modernization,” May 26, 2005.


                                                                                                              15
There are several ongoing acquisition programs that warrant attention because of their
importance to NextGen and potential cost increases, schedule slips, or diminishing
benefits.

En Route Automation Modernization (ERAM): This program replaces the
hardware and software at facilities that manage high-altitude traffic and is a key
platform for NextGen. With an estimated cost of $2.1 billion, ERAM is one of the
largest, most complex acquisitions in FAA’s modernization portfolio. FAA is
requesting $203 million for ERAM for FY 2009, a reduction from the FY 2008 level
of $369 million. ERAM is currently on schedule for its first operational use at the Salt
Lake En Route Center in October 2008, but considerable testing and integration work
lies ahead. Because ERAM is expected to serve as a foundation for NextGen, any
program cost increases or schedule delays will affect the pace of introducing new
capabilities and could directly impact the overall transition to NextGen.

ASDE-X: ASDE-X is FAA’s latest effort designed to help controllers identify
aircraft and vehicle positions on the airport surface, with the ultimate goal of reducing
the risks of accidents on runways. It is planned to improve airport safety by operating
in all-weather and low-visibility conditions (e.g., fog, rain, and snow) when
controllers cannot see surface movement on ramps, runways, and taxiways. In FY
2007, Congress appropriated $70.6 million to FAA for the ASDE-X program. In FY
2008, FAA expects to spend $40.6 million for ASDE-X efforts. For FY 2009, it is
requesting $32.7 million.

ASDE-X was initially designed to provide FAA with a low-cost alternative to its
ASDE-3 radar systems for small- to medium-sized airports, but it has evolved into a
different program. In September 2005, FAA made a major change to the scope of the
program, increasing ASDE-X costs from $505.2 million to $549.8 million and
extending the completion date from 2007 to 2011. FAA now plans to upgrade
ASDE-3 systems with ASDE-X capabilities at 25 large airports and install the system
at 10 other airports that have no existing surface surveillance technology. FAA
concluded this would yield the greatest return on its investment and maximize safety
benefits by deploying ASDE-X capabilities to airports with larger traffic counts or
more complex operations.

In October 2007, we reported 12 that the ASDE-X program is at risk of not meeting its
goal to commission all 35 ASDE-X systems for $549.8 million by 2011 and may not
achieve all planned safety benefits.




12
     OIG Report Number AV-2008-004, “FAA Needs To Improve ASDE-X Management Controls To Address Cost Growth,
     Schedule Delays, and Safety Risks,” October 31, 2007.


                                                                                                         16
 • Since the 2005 re-baseline, FAA has increased the cost to acquire and install some
   ASDE-X activities by $94 million. To stay within the revised baseline, FAA
   offset this cost by decreasing planned expenditures for seven other program
   activities, such as construction for later deployment sites.

 • We are also concerned that the ASDE-X schedule is not realistic. At the time of
   our October 2007 report, FAA had commissioned 11 of the 35 ASDE-X sites;
   however, only 6 of the 11 had all the planned capabilities commissioned for
   operational use. We note that in April 2008, FAA commissioned the 12th
   ASDE-X system for operational use. FAA officials told us that all ASDE-X
   systems have been purchased with spares and test equipment to support each site
   and that site prep has begun. They also noted that each airport presents unique
   challenges that must be addressed. We maintain that FAA should not declare
   ASDE-X as commissioned for operational use until all planned capabilities are
   fully implemented.

 • FAA needs to resolve operational performance issues associated with key
   ASDE-X safety capabilities. For example, while FAA has commissioned the first
   ASDE-X system that can alert controllers of potential collisions on intersecting
   runways or converging taxiways, under certain circumstances the system does not
   generate timely alerts for controllers to take appropriate action. Additionally,
   ASDE-X is susceptible to dropping targets during heavy precipitation. FAA has
   made progress in addressing these problems. FAA will need to fully test ASDE-X
   safety capabilities to ensure the system can meet the unique needs of each airport
   scheduled to receive ASDE-X.

Because of these issues, the program is at risk of not meeting its goals to deliver all
35 ASDE-X systems by 2011. In October 2007, we recommended that FAA develop
realistic cost estimates for all activities required to complete ASDE-X
implementation. We also recommended that FAA resolve operational performance
issues identified during system testing before deploying key ASDE-X safety
capabilities at remaining airports. FAA concurred with our recommendations and
agreed to address our concerns. We will continue to monitor FAA’s efforts to deploy
ASDE-X and implement safety capabilities.

FAA Telecommunications Infrastructure (FTI) Program: FTI is intended to
replace seven FAA-owned and -leased telecommunications networks with a single
network to provide FAA with services through 2017 and reduce operating costs. In
FY 2007, Congress appropriated $28 million in facilities and equipment (F&E) funds
to FAA for this program. In FY 2008, FAA expects to spend $8.5 million in F&E
funds for FTI efforts. Unlike most acquisitions, however, the vast majority of FTI is
funded out of the operations account as opposed to the F&E account.




                                                                                    17
For FY 2008, FAA estimates it will need $210 million in operations funds to support
FTI operations and another $91 million to extend legacy network operations while
continuing the FTI transition. For FY 2009, the Agency is planning to spend
$186 million to support FTI operations and an additional $19 million for legacy
telecommunications systems. The costliest legacy network FTI will replace is the
Leased Interfacility National Airspace System Communications System (LINCS),
with over $600 million spent for operations from 2002 to 2007. In April 2007, FAA
completed negotiations to extend LINCS until April 2008 for a $92 million ceiling
price, with three 6-month options. FTI program officials told us they do not intend to
extend the contract for LINCS legacy network beyond April 2008. This will help to
control telecommunication costs.

In April 2006, we reported 13 that FTI was unlikely to meet its December 2007
transition completion date and recommended that FAA improve FTI management
controls and develop a realistic master schedule. FAA agreed and tasked the MITRE
Corporation with conducting an independent assessment of the FTI master schedule.
The assessment identified several risks associated with FAA meeting its transition
deadline. Consequently, in August 2006, FAA’s Joint Resource Council approved a
second re-baseline of FTI’s cost and schedule goals, which extended the completion
date to December 2008 and increased the overall cost from $3.3 billion to $3.4 billion.
FAA also reduced the total number of NAS services to be transitioned to FTI from
25,294 to 20,033.

Since we last reported, FAA has made significant progress with the FTI transition. As
of January 31, 2008, FAA has delivered 18,294 services. However, it is important to
note that shifting requirements, eroding cost benefits, and risks to air traffic operations
during the transition have impacted the FTI program.

We note that FAA will not replace all networks as originally planned. FAA has
decided not to replace digital equipment that supports long-range radars or switching
equipment that supports flight data for high-altitude communications, as originally
envisioned by the FTI program office. As a result, FAA will have to maintain this
existing equipment much longer than expected. The cost of doing so and the impact
on potential FTI benefits remain uncertain. Additionally, even though the last
baseline significantly reduced the number of services planned for transition, this
number has since climbed to 22,545. FAA attributes the increase to “emerging
requirements” (requirements for new services). Further, the master schedule does not
yet include requirements for moving forward with NextGen efforts. We recognize
that these requirements will have to be addressed through adjustments to the FTI
program or another effort.


13
     OIG Report Number AV-2006-0147 “FAA’s Telecommunications Infrastructure Program: FAA Needs To Take Steps To
     Improve Management Controls and Reduce Schedule Risks,” April 27, 2006.


                                                                                                             18
FAA’s main goal for FTI was to reduce Agency operating costs. Yet, we found that
costs for FTI remain uncertain since FAA still has not validated cost and benefit
estimates as agreed after our 2006 report. Although FAA reduced the number of
services planned, the overall program cost estimate grew by over $100 million
through 2017. As costs have escalated, cost savings have eroded. In 2006, when
FAA re-baselined FTI, we estimated that cost savings decreased from $672 million to
$434 million (when including previous investments in FTI). Further, FAA did not
achieve any FTI cost savings for FY 2007. Until FAA independently validates FTI
cost and benefit information, the cost effectiveness of the investment in FTI will
remain questionable.

Finally, because of recurring outages and customer service problems, many FTI
services are not meeting availability requirements—9 percent of accepted FTI
services in December 2007, as reported by the FTI program office. The contractor
also reported that many of these were not being restored to service within contractual
timeframes after outages.

Unscheduled outages of both primary and back-up services have led to flight delays
and affected air traffic operations. For example, on September 25, 2007, the
Memphis En Route Center lost its radar, flight, and voice communications data on its
primary and alternate paths, which triggered 566 flight delays. FAA attributed the
outage to its third-party telecommunications provider, which was inappropriately
routing FAA telecommunications through a single point of failure. According to
FAA, this same design is in place at other critical FAA facilities, including the Atlanta
and Jacksonville En Route Centers.

Additionally, on November 9, 2007, the Jacksonville En Route Center experienced an
FTI equipment failure that caused the loss of radar and communication services,
forcing air traffic controllers to implement a ground stop and triggering 85 flight
delays. The most recent outage occurred on April 12, 2008, at the Southern
California TRACON, where an FTI equipment failure caused the loss of flight data to
controllers. We will be reporting on the FTI program again later this year.

Air Traffic Management (ATM): This program provides FAA with hardware and
software tools to manage air traffic, expand system capacity, and reduce the impact of
bad weather system-wide. FAA is requesting $90.2 million for ATM for FY 2009.
FAA baselined ATM for $454 million in August 2005 and scheduled its deployment
for FY 2011. ATM is baselined for two initial segments with plans for additional
segments.

Although the ATM effort has not experienced cost increases or schedule delays, we
are concerned about risks and the final outcome since FAA and the contractor
significantly underestimated the size and complexity of software development. Since
then, FAA has modified the contract and adjusted the scope of the work. Although


                                                                                      19
FAA is attempting to adjust the contract, we note that underestimating software
development has led to significant problems with other modernization projects.

The challenges FAA faces with ATM include: (1) developing complex software and
integrating ATM with other NAS systems and (2) determining cost and schedule
decisions on the additional segments, which are unknown at this time.

Challenges With NextGen Programs
FAA has established initial cost and schedule baselines for the first segments of two
key NextGen initiatives: ADS-B and the System-Wide Information Management
program (SWIM). Both programs will require enhanced oversight as FAA begins
integrating them with existing systems.

ADS-B: This program provides satellite-based technology that allows aircraft to
broadcast their position to other aircraft and ground systems. For FY 2009, FAA is
requesting $300 million for ADS-B. In August 2007, FAA awarded a service-based
contract for the ADS-B ground infrastructure worth $1.8 billion if all options are
exercised. FAA estimates that ADS-B will cost about $1.6 billion in capital costs for
initial segments of its implementation through 2014, which include the completion of
a nationwide ground system for receiving and broadcasting ADS-B signals.

FAA must address several challenges to realize the benefits of ADS-B. These
include: (1) gaining stakeholder acceptance and aircraft equipage, (2) addressing
broadcast frequency congestion concerns, (3) integrating with existing systems, (4)
implementing procedures for separating aircraft, and (5) assessing potential security
vulnerabilities in managing air traffic. As we noted in October 2007, 14 the
implementation of ADS-B is a long-term effort that will require significant
investment from Government and industry. Given FAA’s history with developing
new technologies and its approach to ADS-B, in which the Government will not own
the ground infrastructure, we believe this program will require a significant level of
oversight. We will report on ADS-B later this year.

SWIM: This program provides FAA with a web-based architecture that allows
information sharing among airspace users. For FY 2009, FAA is requesting
$41 million for SWIM. In June 2007, FAA baselined the first 2 years of segment 1
(planned to occur between FY 2009 and FY 2010) for $96.6 million. FAA’s latest
Capital Investment Plan cost estimate for SWIM is $285 million. Current challenges
include the work to determine requirements and interfaces with other FAA systems,
including ERAM and ATM. Moreover, SWIM will require integration with other
Federal agencies’ operations to realize NextGen benefits and develop a robust cyber
security strategy and design. While FAA has begun initial efforts, it still needs to

14
     OIG Testimony Number CC-2007-100, “Challenges Facing the Implementation of FAA’s Automatic Dependent
     Surveillance-Broadcast Program,” October 17, 2007.


                                                                                                      20
establish the architecture, strategy, and design. FAA still has not determined
additional SWIM segments or the cost to fully implement SWIM.

FAA Must Enhance Its Cost and Schedule Metrics To Monitor NextGen
Programs
In its FY 2007 Flight Plan and most recent Performance and Accountability Report,
FAA reported that, for FY 2006, 100 percent of its critical acquisitions were within
10 percent of budget estimates and 97 percent were on schedule. In FY 2006, FAA
tracked about 29 projects, including acquisition of new radars. While FAA cost and
schedule performance metrics are worthwhile tools, they have limitations that
decision makers must understand to properly assess the status of FAA’s major
acquisitions.

 • First, FAA’s cost and schedule metrics are “snapshots” in time. They are not
   designed to address changes in requirements, reductions in procured units, or
   shortfalls in performance that occur over time.

 • Second, FAA’s budget metrics compare cost estimates taken during the fiscal year
   using updated, “re-baselined” cost figures—not estimates from the original
   baseline. This is why the Wide Area Augmentation System (a satellite-based
   navigation system) is considered “on budget” even though costs have grown from
   $892 million to over $3 billion since 1998.

 • Finally, FAA’s schedule metrics used for assessing progress with several
   programs in 2006 and 2007 were generally reasonable but focused on interim steps
   or the completion of tasks instead of whether systems met operational
   performance goals. For example, ASDE-X metrics focused on the delivery of two
   systems instead of whether the systems entered service or operated as planned. We
   also found that there are no written criteria for selecting or reporting the
   milestones, and FAA needs to develop written criteria for offices to improve
   milestone reporting.

Although re-baselining a project is important to obtain reliable cost and schedule
parameters and is consistent with Office of Management and Budget guidelines,
comparisons of revised baselines—absent additional information—do not accurately
depict a program’s true cost parameters. To sufficiently measure progress with
NextGen initiatives, FAA will need to explore a wider range of metrics that focuses
on promised capabilities and benefits from bundled procedures and multiple systems.
Our report issued earlier this week recommended that FAA develop new metrics to
assess progress with NextGen with respect to enhancing capacity, boosting
productivity, and reducing Agency operating costs.




                                                                                 21
Much Work Remains To Determine How To Transition Existing Projects
to NextGen
In February 2007, we recommended that FAA examine existing projects to determine
if they were still needed and, if so, what adjustments would be required. FAA
concurred with our recommendation and stated that it has begun this assessment. To
date, however, FAA has not made major adjustments to modernization projects

According to FAA, approximately 30 existing capital programs will serve as
“platforms” for NextGen. Over the next 2 years, FAA must make over 20 critical
decisions about ongoing programs. These decisions have significant budget
implications and affect all major lines of the modernization effort with respect to
automation, communications, navigation, and surveillance.

 • Automation: FAA will approve a limited number of “candidate capabilities” and
   enhancements for the second major ERAM software release. In FY 2008, FAA
   will identify the requirements and cost parameters for new capabilities based on
   ERAM targeted for the 2012 to 2018 timeframe. FAA will also have to address
   what changes are needed to modernize its terminal facilities and whether or not it
   will pursue a “common automation platform” for terminal and en route
   environments in the future.

 • Communications: Between FY 2008 and FY 2009, FAA plans to decide how to
   move forward with data communications and when to restart a data-link
   communications program for controllers and pilots. Costs remain uncertain, and
   FAA faces a myriad of complex questions about its overall technical approach,
   implementation plans, and rulemaking initiative timeline.

 • Navigation: FAA intends to decide how much of the existing ground-based
   navigation system will be retained. Specifically, in FY 2008, FAA will consider
   how best to move forward with the next generation precision and approach landing
   system and whether to pursue the Local Area Augmentation System—which has
   been in research and development status since FY 2004.

 • Surveillance: As part of the effort to move forward with ADS-B, FAA must
   decide how to best incorporate “fusion” into existing air traffic control automation
   systems. Fusion in this context is defined as taking all surveillance data available
   for an aircraft and using the best data or combination of data to determine aircraft
   position and intent. Industry groups have asked FAA to accelerate its work on
   fusion.




                                                                                    22
FAA Needs To Refine Its Plans To Move Forward With NextGen, Reduce
Risks, and Focus Investment Decisions
FAA is making progress toward developing the NextGen Enterprise Architecture (a
technical blueprint), which is planned for implementation by 2025. FAA is exploring
ways to accelerate NextGen. However, costs for NextGen remain uncertain, and FAA
has yet to establish reasonable expectations for mid- and long-term NextGen
investments and realistic timeframes for improvements to enhance capacity and
reduce delays. At this juncture, FAA needs to pursue the following actions:

     • Conduct a gap analysis of the current NAS and future NextGen capabilities.
       FAA’s architecture for NextGen does not detail how FAA will transition from the
       present NAS and the future NextGen architectures, which will have considerably
       different capabilities and performance parameters. Until FAA completes a gap
       analysis, it will not be able to determine technical requirements that translate into
       reliable cost and schedule estimates for major acquisitions.

     • Set expectations and establish NextGen funding priorities. At this point, it is
       difficult for decision makers and FAA to determine what projects to invest in first
       or what elements can be accelerated. FAA needs to better understand costs and
       benefits and then identify the high priority improvements and reflect those
       priorities in budget requests.

     • Develop an interim architecture for what can be accomplished by 2015.
       Because of the significant differences between the present system and the
       NextGen architecture and concept of operations, FAA should develop an interim
       architecture for the 2012 to 2015 timeframe. This would help FAA to determine
       reasonable goals, establish priorities, fully identify adjustments to existing
       projects, refine requirements for new systems, and understand complex transition
       issues.

     • Develop a strategy for acquiring the necessary skill mix to effectively manage
       and execute NextGen. In response to our February 2007 report, 15 FAA
       contracted with the National Academy of Public Administration to assess the skill
       sets needed for NextGen. A preliminary report 16 highlighted the need for
       proficiency in systems integration and systems engineering, particularly with an
       understanding of the human factors discipline. FAA must anticipate needed skill
       sets for NextGen to avoid the problems that have hindered its modernization
       efforts.


15
     OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To Reduce Risks With the
     Next Generation Air Transportation System,” February 12, 2007.
16
     Report by a panel of the National Academy of Public Administration, “Workforce Needs Analysis for the Next
     Generation Air Transportation System (NextGen), Preliminary Findings and Observations,” December 2007.


                                                                                                               23
ADDRESSING ATTRITION WITHIN FAA’S CRITICAL
WORKFORCES
A key challenge for FAA for at least the next 10 years is addressing attrition in two of
its critical safety workforces—air traffic controllers and aviation safety inspectors.
FAA is currently training more new controllers than it has in the past 15 years. The
percentage of new (developmental) controllers within the controller workforce has
increased from about 15 percent in 2004 to about 25 percent in 2007.

As a result, FAA is facing a fundamental transformation in the composition of its
controller workforce that will require improvements in its facility training program—a
critical component in addressing controller attrition. However, we found that FAA’s
facility training program continues to be extremely decentralized and the efficiency
and quality of the training varies extensively from one location to another. We found
similar problems in 2004. 17

FAA also is facing substantial safety oversight challenges due to potential attrition in
its inspector workforce. FAA has about 4,100 inspectors to oversee a dynamic and
rapidly changing industry, which includes 114 commercial air carriers, almost
5,000 foreign and domestic repair stations, more than 700,000 active pilots, and more
than 1,600 approved manufacturers.

Addressing Controller Attrition by Improving Facility Training
The long expected surge in controller attrition has begun.               Since 2005,
3,300 controllers have left the workforce 18 —only 37 of these left because they had
reached the mandatory retirement age of 56. The total rate of attrition was 23 percent
higher than FAA had projected. However, FAA has accelerated its hiring efforts to
fill vacancies. Since 2005, FAA has hired 3,450 new controllers—25 percent more
than projected. Still, FAA faces a major challenge as it must hire and train
17,000 new controllers through 2017.

Figure 3 shows FAA’s estimates and actual numbers for controller attrition and new
controller hiring from FY 2005 through FY 2007.




17
     OIG Report Number AV-2004-060, “Opportunities To Improve FAA’s Process for Placing and Training Air Traffic
     Controllers in Light of Pending Retirements,” June 2, 2004.
18
     Attrition includes retirements, resignations, promotions to supervisory or non-controller positions, training failures, and
     deaths.


                                                                                                                            24
  Figure 3. Controller Attrition and Hiring Projected Versus Actual
                                                         (FY 2005 to FY 2007)




              Number of Controllers
                                      4,000
                                      3,500                 3,300                             3,450
                                      3,000      2,683                            2,751
                                      2,500
                                      2,000
                                      1,500
                                      1,000
                                       500
                                          0

                                              Projected Actual                   Projected Actual
                                              Attrition Attrition                 Hiring   Hiring

          Source: FAA

The overall percentage of controllers-in-training has grown substantially over the past
3 years. From April 2004 to December 2007, the overall size of the controller
workforce remained constant. However, during the same period, the number of
controllers-in-training increased by 1,375, or 62 percent, while the total number of
CPCs decreased by 1,302, or 11 percent (see table 2). As a result, FAA is now
training more new controllers than it has in the past 15 years.

            Table 2. Total Controller Workforce Composition
                                          Date              CPCs       Controllers        Total
                                                                      In Training*
                                      April 2004            12,328       2,209            14,537
                                December 2007               11,026       3,584            14,610**
                                      Difference           (-1,302)     +1,375             +73
            * Includes newly hired or developmental controllers and transferred CPCs in training at new locations.
           ** This number does not include new hires in training at the FAA Academy.
             Source: FAA

While the number of controllers in training has increased significantly since 2004,
FAA’s reports to its stakeholders do not reflect this change. This is because FAA
does not differentiate between CPCs and controllers-in-training in its Controller
Workforce Plan. FAA only reports the total number of controllers at each location.
In our opinion, FAA should report the number of CPCs and the number of
controllers-in-training separately for each location. Differentiating those figures by
location could provide Congress and the Secretary with a “snapshot” of the controller
workforce and provide a benchmark for year-to-year comparisons.




                                                                                                                     25
A major challenge in addressing the surge in controller attrition will be to train
transferring and developmental controllers to the CPC level at their assigned
locations. Facility training can take up to 3 years and is the most expensive part of
new controller training.      Developmental controllers and transferring veteran
controllers face a demanding training process at their assigned locations. The training
is conducted in stages and consists of a combination of classroom, simulation, and
OJT.

After controllers complete classroom and simulation training they begin OJT, which
is conducted by a CPC who observes and instructs trainee controllers individually as
they work the control position. Controllers in training achieve certification on each
position as they move through the various stages. After they have certified on all
positions within their assigned area, they are commissioned as a CPC at that facility.

Training new controllers to the CPC level is important for two reasons: (1) only
CPCs are qualified to control traffic at all positions of their assigned area and (2) only
CPCs certified for at least 6 months (at their assigned location) can become OJT
instructors for other new controllers. FAA must have enough OJT instructors at all
locations if it is to achieve its ambitious hiring and training plans for the next 10 years
and beyond.

It is important to note that new controllers who have completed portions of training
and have been certified on a position can independently staff that position. However,
controllers are not qualified CPCs until they have certified on all positions within
their assigned area. In addition, using position-qualified controllers extensively to
staff positions can lengthen the time required for them to become CPCs since they are
not training on other new positions.

We recently completed an audit of FAA’s controller facility training program—our
second review of this program since 2004. Overall, we found that the program
continues to be extremely decentralized and the efficiency and quality of the training
varies from one location to another. We found similar problems in 2004. FAA is
taking actions at the national level to get this important program on track. For
example, FAA increased the use of contractor training support from 53 facilities in
2004 to 190 facilities in November 2007.

However, many of FAA’s other efforts are still in the early stages of implementation.
To achieve its goals for the controller workforce, FAA will need to take the following
actions.

Clarify responsibilities for oversight and direction of the facility training
program at the national level. Since the creation of the Air Traffic Organization,
FAA has assigned national oversight responsibility for facility training to the Air
Traffic Organization’s Vice President for Terminal Services and the Vice President


                                                                                        26
for En Route Services. However, the Vice President for Acquisition and Business
Services oversees new controller hiring and the FAA Academy training program, and
the Senior Vice President for Finance oversees the development of the Controller
Workforce Plan. Both play key roles in the controller training process.

As a result of these overlapping responsibilities, we found that there is significant
confusion at the facility level. During our review, facility managers, training
managers, and even Headquarters officials were unable to tell us who or what office
was responsible for facility training. In our opinion, FAA needs to clarify
responsibility for oversight and direction of the facility training program at the
national level and communicate those roles to facility managers.

Establish realistic standards for the level of developmental controllers that
facilities can accommodate. FAA plans to increase the number of developmental
controllers to over 30 percent of the total controller workforce. This would be the
highest percentage of developmental controllers in the past 15 years. In its Controller
Workforce Plan, FAA estimates that the controller workforce at each facility can
comprise up to 35 percent in developmental controllers and still maintain operations
and training.

FAA also estimates that if facilities exceed that amount, training times would
significantly increase because the number of developmental controllers would surpass
available training capacity. However, we found that many facilities already meet or
exceed the 35-percent level. As of December 2007, 70 facilities nationwide (over
22 percent of all FAA air traffic control facilities) exceeded that level, compared to
just 22 in April 2004. This represents a 218-percent increase in just 3 years. For
example, as of December 2007:

 • Teterboro Tower had 12 CPCs and 13 developmental controllers (52 percent
   developmental).
 • Oakland Center had 163 CPCs and 101 developmental controllers (38 percent
   developmental).
 • Las Vegas TRACON had 22 CPCs and 22 developmental controllers (50 percent
   developmental).

Many facility managers, training officers, and union officials we spoke with disagreed
with FAA’s estimate of an acceptable level of developmental controllers. They stated
that, in order to achieve effective controller training while maintaining daily
operations, the maximum percentage of developmental controllers should be limited to
between 20 percent and 25 percent of a facility’s total controller workforce.

The difference between these estimates and FAA’s maximum percentage is
disconcerting, particularly since 70 facilities already exceed the FAA limit. A


                                                                                    27
significant issue is that FAA’s 35-percent estimate was originally intended to
determine how many developmental controllers could be processed through the FAA
Academy—not how many new controllers that could be trained at individual
facilities. However, it appears FAA is now using that percentage as a benchmark for
all facilities.

FAA Headquarters officials we spoke with agreed that “no one size fits all” when
determining how many trainees a facility can accommodate. We agree, given the
various sizes and complexities of FAA’s more than 300 facilities. In our opinion,
FAA needs to re-examine its estimate and identify (by facility) how many
developmental controllers facilities can realistically accommodate.

In determining this amount, FAA needs to consider several factors at each location,
such as the number of available OJT instructors, available classroom space, the
number of available simulators, and the number of recently placed new personnel
already in training.

Implement key initiatives proposed in its 2004 Controller Workforce Plan. FAA
has not implemented several key initiatives relating to facility training that it first
proposed in its December 2004 Controller Workforce Plan. Those included
“developing, implementing and enforcing a policy that assigns facility training as a
priority second only to operations.” This was to be accomplished by (1) placing
developmental controllers only at facilities that had available training capacity,
(2) requiring facility managers to suspend training only for critical operational
necessities, and (3) establishing nominal “time-to-certify” metrics and holding
managers accountable for achieving those targets. However, FAA never issued this
policy.

In addition, FAA has not comprehensively evaluated its facility training program. In
its 2004 Controller Workforce Plan, FAA stated it would, “conduct a thorough review
of facility training to ensure it begins where the Academy ends. This review will take
into consideration other efficiency gains identified in this plan and will result in
facility training programs tailored to meet the needs of developmental controllers of
the future.” FAA intended for this effort to help reduce the time it takes new
controllers to become CPCs. However, FAA never conducted the evaluation.

To its credit, FAA has successfully implemented an important initiative—increasing
the use of training simulators at towers. Tower simulators were recently installed at
four towers: Chicago O’Hare, Miami, Ontario, and Phoenix. The simulators are
programmed with scenarios and occurrences exclusive to those airports, using actual
aircraft with their respective call signs. By using simulators, controllers gain inherent
knowledge of a particular airport, its airspace, and application of air traffic procedures
for that specific location. The simulators also have a function that writes software for



                                                                                       28
additional airports; this allows controllers from surrounding facilities to utilize the
simulators as well.

Results thus far indicate that simulators at towers are a valuable training tool, and
managers of the facilities with simulators are pleased with the results. The National
Aeronautics and Space Administration (NASA) Ames Research Center conducted an
evaluation and found that it took 60 percent fewer days for developmental controllers
to complete ground control training at the Miami tower. Further, at Chicago O’Hare,
NASA reported that it took developmental controllers 42 percent fewer days to
complete ground control training.

FAA plans to install 12 additional simulators this year (6 at large airports and 6 at the
FAA Academy) and 12 next year (at other airports). FAA must ensure that this effort
remains on track to capitalize on the significant success that this training has
demonstrated.

We plan to issue our final report on controller facility training later this spring. We
are also conducting other congressionally requested reviews of related controller
issues. At the request of the Chairman of the House Subcommittee on Aviation, we
are reviewing controller training failures (developmental controllers who fail training
either at the FAA Academy or at their assigned facility). At the request of Senator
Durbin of Illinois, we are reviewing factors that could affect controller fatigue. This
issue was identified by the National Transportation Safety Board after the crash of
Comair 5191 in 2006. We are focusing our current efforts at Chicago O’Hare Tower,
Chicago TRACON, and Chicago Center but may review other locations and FAA’s
national efforts based on the results of our work at Chicago.

Addressing Inspector Attrition and Implementing Staffing Models
FAA and the U.S. aviation industry have experienced one of the safest periods in
aviation history. While much of the credit for this impressive safety record is due to
safety systems that air carriers have built into their operations, FAA regulations and
inspectors play an important role in providing an added layer of safety oversight.
This oversight covers a vast network of operators and functions, which make up the
largest, most complex aviation system in the world (see table 3 below).




                                                                                      29
                        Table 3. FAA Inspectors’ Workload

        Commercial Air Carriers    114        Flight Instructors          89,396
                                              FAA Designee
        Repair Stations            4,978      Representatives             11,292

        Active Pilots             749,834     Aircraft                   319,549
                                              FAA-Licensed Mechanics
        Approved Manufacturers     1,647      and Repairmen              361,273
        Source: FAA

FAA’s approximately 4,100 inspectors must oversee both domestic and foreign
aspects of these operations. This task is made more difficult by the rapidly changing
aviation environment. We see two issues that warrant attention: FAA must (1)
maximize risk-based oversight programs and (2) develop and implement a reliable
staffing model to ensure it has a sufficient number of inspectors where they are most
needed.

To maximize its limited inspector resources, FAA has been working toward risk-
based safety oversight systems for air carriers, repair stations, and manufacturers.
These systems target inspector resources to areas of greatest risk.

FAA has worked to move its safety oversight for aircraft repair stations to a risk-
based system over the past 2 years. However, FAA’s new system does not include a
process for overseeing critical repairs performed by non-certificated repair facilities.
In December 2005, we reported that FAA must understand the full extent and type of
work that non-certificated repair facilities perform. These facilities are not licensed or
routinely visited by FAA inspectors but perform critical maintenance, such as engine
replacements. FAA’s efforts to identify which non-certificated repair facilities
perform this type of maintenance for air carriers are still underway.

FAA will also need to modify its risk-based system for manufacturers so that
inspectors can more effectively oversee manufacturing operations in today’s complex
aviation environment. FAA’s current oversight system does not consider the
increasingly prominent role that aircraft parts and component suppliers now play in
aviation manufacturing. In the past, manufacturers built the majority of their aircraft
within their own manufacturing facilities using their own staff. Now, manufacturers
use domestic and foreign part suppliers to build large sections of their aircraft. Given
these changes, FAA needs to strengthen its system for overseeing aircraft and aircraft
part suppliers so that its oversight is effective and relevant.

In addition to targeting inspector resources through risk-based oversight, FAA must
have a reliable staffing model on which to base its inspector assignments. FAA has
made at least two attempts to develop a staffing model to determine the number of

                                                                                       30
inspectors needed and the best locations for placement. Neither model, however,
provided FAA with an effective approach for allocating inspector resources.

Last year, FAA’s hiring efforts kept pace with retirements, and the Agency ended the
year with 133 additional inspectors over FY 2006 levels. Because of staffing gains in
FY 2007 to 2008, FAA’s budget request for FY 2009 does not include funding for any
additional inspectors over the FY 2008 levels. However, FAA must continue to
closely oversee this hiring effort since nearly half of the workforce will be eligible to
retire within the next 5 years. FAA will never have an inspection workforce that is
large enough to oversee every aspect of aviation operations, but it must develop a
reliable staffing model to effectively use its inspector resources.

At the direction of Congress, the National Research Council evaluated FAA’s current
methods for allocating inspector resources in September 2006. This study reported
similar concerns that we identified in past reports—that FAA’s current method of
allocating inspectors is antiquated and must be redesigned to effectively target
inspectors to those areas of higher risk.

The Council also reported that the changing U.S. and global aviation environments
will be key drivers of future inspector staffing needs. For example, airlines’
outsourcing of aircraft maintenance, FAA’s shift to a system safety oversight
approach, and safety inspectors’ attrition and retirement are all important factors that
must be considered in determining staffing needs.

FAA is still in the early stages of developing a new staffing method and has
established an interim target date to assess current staffing methods and begin
identifying the elements of the next generation staffing tool by September 2008. FAA
recently finalized milestones to develop and implement the new model and plans to
begin using it by October 2009. FAA’s measurable progress toward a new staffing
model is a key watch item, and we will continue to monitor this important initiative.

That concludes my statement, Madam Chairman. I would be happy to address any
questions you or other Members of the Subcommittee may have.




                                                                                      31
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
                   Key Safety and Modernization Challenges
                  Facing the Federal Aviation Administration
                       Section 508 Compliant Presentation

Figure 1. Timeline of the Southwest Airlines Disclosure

 • March 14, 2007: Southwest Airlines discovers it overflew Airworthiness
   Directive.

 • March 15, 2007: Southwest Airlines representative notifies Principal Maintenance
   Inspector that 100 planes may have overflown Airworthiness Directive.

 • March 19, 2007: Southwest Airlines self-discloses that 47 planes overflew
   Airworthiness Directive (Southwest Airlines later determined only 46 planes had
   violated the Airworthiness Directive).

 • March 22, 2007: During routine inspection at Chicago, whistleblower sees cracks
   on 1 of the reported planes—it had flown the day before.

 • March 23, 2007: Southwest Airlines states it has completed inspections for
   affected planes—five had cracks. (Note: Affected planes continue operating on
   1,451 flights from March 14, 2007, to March 23, 2007.)

 • April 16, 2007: Independent review (by inspectors for another office within the
   Federal Aviation Administration’s Southwest Region) concludes that Southwest
   Airlines operated 47 planes in known unairworthy condition and that the Principal
   Maintenance Inspector condoned this. No action taken against the Principal
   Maintenance Inspector.

 • May 1, 2007: The Federal Aviation Administration’s Southwest Region requests
   the Federal Aviation Administration’s Security and Hazardous Materials Division
   to review the Southwest Airlines disclosure.

 • July 12, 2007: Security and Hazardous Materials Division reports that Southwest
   Airlines stated that the Principal Maintenance Inspector never ordered the planes
   grounded and that the Principal Maintenance Inspector admitted he shouldn’t have
   encouraged the self-disclosure.

 • September 18, 2007: The Federal Aviation Administration’s Southwest Region
  requests a second review from the Security and Hazardous Materials Division.
 • October 2, 2007: Security and Hazardous Materials Division second review
   reports that the Principal Maintenance Inspector admitted he should have
   grounded planes but chose to avoid negative affect on FAA (results of this review
   spark February 2008 Committee request to the Office of Inspector General).

 • November 16, 2007: The Federal Aviation Administration initiates enforcement
   action.


Figure 2. Percentage Increase in Outsourced Maintenance Expense for Major
Air Carriers, 1996 to 2006

   (Year) 1996    Of the total maintenance cost ($4.17 billion), 37 percent was
                  outsourced maintenance expense.
   (Year) 1997    Of the total maintenance cost ($4.83 billion), 38 percent was
                  outsourced maintenance expense.
   (Year) 1998    Of the total maintenance cost ($5.26 billion), 41 percent was
                  outsourced maintenance expense.
   (Year) 1999    Of the total maintenance cost ($5.51 billion), 45 percent was
                  outsourced maintenance expense.
   (Year) 2000    Of the total maintenance cost ($6.09 billion), 44 percent was
                  outsourced maintenance expense.
   (Year) 2001    Of the total maintenance cost ($5.88 billion), 47 percent was
                  outsourced maintenance expense.
   (Year) 2002    Of the total maintenance cost ($5.37 billion), 47 percent was
                  outsourced maintenance expense.
   (Year) 2003    Of the total maintenance cost ($4.85 billion), 51 percent was
                  outsourced maintenance expense.
   (Year) 2004    Of the total maintenance cost ($5.11 billion), 54 percent was
                  outsourced maintenance expense.
   (Year) 2005    Of the total maintenance cost ($5.51 billion), 62 percent was
                  outsourced maintenance expense.
   (Year) 2006    Of the total maintenance cost ($5.77 billion), 64 percent was
                  outsourced maintenance expense.
Table 1. Number of Supplier Audits Completed by the Federal Aviation
Administration for Five Major Manufacturers (for fiscal years 2003 through
2006)

The table data show that in each of the last 4 fiscal years, FAA has inspected an
average of 1 percent of the total suppliers used by the five manufacturers we reviewed
(these are listed as A through E below).

 • Manufacturer A had a total of 4,012 supplier facilities. In FY 2003, FAA
   completed 2 supplier audits. In FY 2004, FAA completed 1 supplier audit. In FY
   2005, FAA completed 7 supplier audits. In FY 2006, FAA completed 4 supplier
   audits.

 • Manufacturer B had a total of 2,553 supplier facilities. In FY 2003, FAA
   completed 31 supplier audits. In FY 2004, FAA completed 26 supplier audits. In
   FY 2005, FAA completed 15 supplier audits. In FY 2006, FAA completed 27
   supplier audits. (Note: This manufacturer operates seven separate manufacturing
   divisions. As a result, FAA evaluated the seven divisions separately for risk
   assessment purposes, which resulted in more supplier control audits.)

 • Manufacturer C had a total of 706 supplier facilities. In FY 2003, FAA completed
   5 supplier audits. In FY 2004, FAA completed 4 supplier audits. In FY 2005, FAA
   completed 4 supplier audits. In FY 2006, FAA completed 6 supplier audits.

 • Manufacturer D had a total of 489 supplier facilities. In FY 2003, FAA completed
   5 supplier audits. In FY 2004, FAA completed 3 supplier audits. In FY 2005, FAA
   completed 1 supplier audit. In FY 2006, FAA completed 2 supplier audits.

 • Manufacturer E had a total of 367 supplier facilities. In FY 2003, FAA completed
   0 supplier audits. In FY 2004, FAA completed 2 supplier audits. In FY 2005, FAA
   completed 3 supplier audits. In FY 2006, FAA completed 2 supplier audits.

Note: The number of supplier facilities listed for each manufacturer is based on
information obtained for 2004.

Source: FAA’s National Supplier Control Audit Schedules, FY 2003-2006
Figure 3. Controller Attrition and Hiring Projected versus Actual, FY 2005 to
FY 2007

 • For this period, projected controller attrition was 2,683. Actual controller attrition
   was 3,300.

 • For this period, projected controller hiring was 2,751. Actual controller hiring was
   3,450.

Source: FAA


Table 2. Total Controller Workforce Composition

 • In April 2004, there were 12,328 Certified Professional Controllers and 2,209
   Controllers-in-Training. The total number of controllers was 14,537.

 • In December 2007, there were 11,026 Certified Professional Controllers and 3,584
   Controllers-in-Training. The total number of controllers was 14,610. (Note: This
   number does not include new hires in training at the FAA Academy.)

 • The number of Certified Professional Controllers in December 2007 was reduced
   by 1,302 compared to April 2004. The number of Controllers-In-Training in
   December 2007 was increased by 1,375 compared to April 2004.

 • The total number of controllers in December 2007 was increased by 73, compared
   to April 2004.

(Note: Controllers-In-Training include newly hired or developmental controllers and
transferred Certified Professional Controllers who are in training at new locations.)

Source: FAA
Table 3. FAA Inspectors’ Workload

 Commercial Air Carriers        114      Flight Instructors       89,396

 Repair Stations                4,978    FAA Designee             11,292
                                         Representatives
 Active Pilots                 749,834   Aircraft                 319,549
 Approved Manufacturers         1,647    FAA-Licensed Mechanics   361,273
                                         and Repairmen

Source: FAA
